                                                                                           Office of Inspector General

                                                                                           U.S. Department of Homeland Security
                                                                                           1111 Broadway, Suite 1200
                                                                                           Oakland, California 94607




                                                         July 18, 2005


MEMORANDUM FOR:                         Karen E. Armes
                                        Acting Regional Director
                                        FEMA Region IX




FROM:                                   Robert J. Lastrico
                                        Director, Grant Program Management Audit Division

SUBJECT:                                Audit of the City of San Jose, California
                                        Public Assistance ID. No. 085-68000
                                        FEMA Disaster No. 1203-DR-CA
                                        Audit Report Number DS-13-05

The Office of Inspector General (OIG) audited public assistance grant funds awarded to City of San
Jose, California (City). The objective of the audit was to determine whether the City expended and
accounted for Federal Emergency Management Agency (FEMA) funds according to federal
regulations and FEMA guidelines.

The City received a public assistance grant award of $3.23 million from the California Office of
Emergency Services (OES), a FEMA grantee, for damage resulting from severe winter storms and
flooding beginning on February 2, 1998 and continuing through April 30, 1998. The award provided
75 percent federal funding for 4 large projects and 11 small projects.1 The audit covered the period
February 2, 1998 to May 14, 2004, and included a review of the 4 large projects and 5 of the
11 small projects with a total award of $3.20 million (see Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review of FEMA, OES, and City records, a judgmental sample of
project expenditures, and other auditing procedures considered necessary under the circumstances.




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $47,100.
                                             RESULTS OF AUDIT

The City generally expended and accounted for public assistance funds according to federal
regulations and FEMA guidelines for two large projects and five small projects reviewed. However,
for two other large projects, the OIG questioned $349,713 of unsupported, ineligible, and
unallowable costs claimed by the City (FEMA’s share of the questioned amount is $262,285). In
addition, as noted in Finding D, the audit identified instances where FEMA project records did not
sufficiently support FEMA’s funding decisions.

Finding A – Unsupported Costs

The City’s claim for project 58500 included $264,216 in costs not supported with documentation
showing the charges were eligible or disaster related. According to 44 CFR § 13.20(b), the City is
required to maintain accounting records that identify how FEMA funds are used.

    •   The City did not adequately support $256,720 in force account labor for project design and
        inspection. The accounting records documenting the costs claimed were comprised of
        computer-generated reports that identified by date: employee name, hours charged to disaster
        work, and a disaster code. However, the reports did not include information explaining how the
        hours claimed related to disaster work. Also, the City was not able to provide the OIG with any
        additional documentation proving the claimed hours were incurred on disaster- related efforts.
        In addition to not adequately supporting any of its $256,720 claim for project design and
        inspection costs, the City could not explain or justify the significant deviation from the
        $103,144 in project funding initially approved by FEMA for these costs.

•       The claim also included $7,496 in unsupported surveying costs. Records supporting project
        expenditures showed that the costs for survey services related to a City-wide contract. Invoices
        supporting the costs claimed detailed tasks and locations, but did not name the project scope
        (Alum Rock Park) as a location included in the charges. The invoices included hand written
        notes that identified that a portion of the cost was allocated to project 58500; however, project
        records did not include documented evidence proving the costs pertained to the project.

Since the City’s records did not support the expenditures claimed for force account labor and
surveying, the OIG questioned $264,216.

Finding B – Ineligible Project Costs

The City’s claim for project 58500 included $77,638 in costs not related to disaster damage.
According to 44 CFR § 206.223(a)(1), to be eligible for financial assistance, an item of work must
be required as the result of the major disaster event. The claimed costs pertained to the completion of
the Alum Rock Park Stream - Riparian Management Plan (Plan) that the City was required to have
in place,2 irrespective of disaster work. The objective of the Plan was to assist the City in making
informed decisions about maintenance, restoration, and capital improvements of its riparian and

2
    To comply with U.S. Army Corps of Engineers permit conditions

                                                          2
aquatic resources. FEMA project records showed that FEMA did not become aware of the Plan until
the City submitted the claim for the project expenditures. The cost of completing the Plan was
$88,638, including $11,000 relating to disaster work completed under project 58500. Therefore, the
OIG questions $77,638 ($88,638 less $11,000) because the additional costs claimed were not
disaster related.

Finding C – Unallowable Force Account Labor Costs

The City’s claim for project 21582 included $7,859 of unallowable force account labor charges. The
unallowable costs consisted of $3,405 for overtime charges associated to four management
employees and $4,454 in standby costs for eight employees. City records supporting the costs
showed that the City did not pay the four management employees for disaster overtime, and the
standby costs were not related to the performance of actual disaster work. In a letter to the OIG,
dated April 11, 2005, the City agreed to remove the $7,859 in unallowable force account labor
charges from the claim.

According to 44 CFR § 206.223(a)(1), to be eligible for FEMA funding, an item of work must be
required as the result of the major disaster event. OMB Circular A-87, Attachment B, paragraph 11,
allows federal reimbursement for salaries paid to employees when the compensation is reasonable.
The OIG questioned $7,859 ($3,405 plus $4,454) because the claimed force account labor costs were
not incurred or related to actual disaster work.

Finding D – Lack of FEMA Oversight for Managing and Monitoring of Project 58500.

The City received approximately $1.6 million in public assistance funding under large project 58500
for disaster related repairs to a public facility (Penitencia Creek within the City’s Alum Rock Park).
In reviewing project files maintained by FEMA, OES, and the City, the OIG determined that project
records lacked adequate information supporting funding decisions. Specifically, records did not
support FEMA’s decision for 1) approving a change in the project scope, 2) approving project
funding in excess of costs estimates provided by the City, and 3) awarding the project clearance
under the National Environmental Policy Act. The OIG determined that except for the questioned
costs identified in findings A, B, and C of this report, the City’s claim for project 58500 were related
to eligible disaster costs and work.

•     FEMA records did not include documentation showing that changes in the project scope were
      adequately evaluated. In July 1998, FEMA approved project 58500 and awarded $660,788 for
      the repair of channel linings (walls) at 32 sites and hazard mitigation measures at 5 sites along
      Penitencia Creek. In February 2000, FEMA approved supplemental funding of $817,6113 and
      increased total project funding to $1.5 million4. While City records showed the City’s request for
      additional disaster funds was due to revisions in the scope of the project, neither FEMA nor OES
      project records included documentation justifying the decision to approve the additional funds.
      Those records did not include documentation showing whether FEMA or OES had performed an

3
    Supplemental Damage Survey Report 02967
4
    $660,788 plus $817,611

                                                    3
    analysis to determine the eligibility of the project scope changes and of the additional project
    costs. Except for the Damage Survey Report showing that the additional funds were approved,
    project records were silent as to how the funding decision was determined.

•   FEMA records did not include documentation justifying the award of funds in excess of cost
    estimates provided by the City. The $817,611 in supplemental funding approved by FEMA
    included $308,685 in excess cost that was not based on the City’s cost data5 provided to OES and
    FEMA. The excess cost consisted of $151,485 for repair work and $157,200 for hazard
    mitigation. In funding repair costs, FEMA used the City Engineer’s estimate that was higher than
    the low bid accepted by the City from a contractor. In addition, the hazard mitigation costs
    duplicated the task already included in the scope of work submitted with the low bid. The
    $308,685 in excess funding allowed the City to spend disaster funds for additional contractual
    services6 without first notifying FEMA and to claim force account labor costs for project design
    and inspection that exceeded FEMA’s approved funding (see Finding A).

•   FEMA’s clearance under National Environmental Policy Act (NEPA) was based on incomplete
    information about the scope of the project. Project records showed that in February 2000, FEMA
    granted the project a “categorical exclusion” for a NEPA review; this decision was based on
    information provided by the City as part of a request for additional project funding7. In the letter
    waiving the NEPA requirement, FEMA informed the City that any further changes beyond the
    approved scope of work would require additional NEPA review.

    On May 3, 2001, OES forwarded to FEMA the City’s request for approval of changes in the
    project scope. In the request, the City disclosed that the changes primarily pertained to
    construction methods; for example, the construction method for four damaged locations was
    changed from rock slope protection to vegetation rock wall. On the cover letter accompanying
    the City’s request, OES recommended that FEMA conduct a site visit to determine if historical
    resources and/or endangered species were affected and whether consultation with federal
    regulatory agencies was appropriate. In response to the OES recommendation, FEMA
    determined that the project was categorically excluded from the need to prepare either an
    Environmental Assessment or an Environmental Impact Statement. Therefore, based on the
    information provided by the City and FEMA’s previous categorical exclusion determination,
    FEMA notified OES and the City that no further NEPA action was required.

    City records showed that prior to FEMA granting the “categorical exclusion” for the project, the
    California Regional Water Quality Control Board (CRWQCB) and the U.S. Army Corps of
    Engineers (USACE) notified the City of a need to complete a Plan8 of its riparian and aquatic
    resources by September 15, 1999.


5
  City’s Engineer estimate and low bid accepted by the City from a contractor.
6
  This included the cost for the Alum Rock Park Stream - Riparian Management Plan that is questioned in Finding B.
7
  Supplemental Damage Survey Report 02967
8
  Alum Rock Park Stream – Riparian Management Plan. The Plan detailed projected maintenance, restoration, and
capital improvements.

                                                          4
    Also, City records showed that in December 2000, a City contractor, hired to monitor project
    compliance with the USACE permit requirements, issued an internal report to the City citing
    numerous permit violations under the Endangered Species Act and the Clean Water Act. The
    contractor informed the City about the need to address the problems in order to avoid repetition
    of such problems on future projects in the Park. The types of violations included initiating work
    without having biologists survey the site for endangered species, improper dewatering of the site
    prior to beginning of work, and allowing concrete slurry to contaminate the streambed.

    For the FEMA funded disaster work, the Plan directed the City to use a repair method that was
    different from one initially approved by FEMA. The City did not provide FEMA with all
    pertinent issues and information affecting the project scope changes, and FEMA did not take
    action to properly monitor and evaluate the changes. Thus, FEMA did not have the opportunity
    to properly assess the City’s compliance with NEPA requirements and did not have assurance
    that project 58500 met all eligibility requirements for federal funding. In a similar situation,
    FEMA denied funding for disaster repair costs where an applicant made substantial changes to
    the scope of a project and did not offer FEMA the opportunity for a NEPA review.

    The Code of Federal Regulations (44 CFR § 206.200) requires FEMA to deliver eligible
    assistance as quickly and efficiently as possible consistent with federal laws and regulations.
    Specifically, the 44 CFR requires FEMA to:

•   Review, approve, or take appropriate action on the Grantee’s (i.e. OES) recommendations
    relating to subgrantees’ requests for time extensions beyond the OES authority, large projects
    cost overruns, and budget and programmatic changes (i.e., revision to project scope or
    objectives) which require FEMA’s approval prior to performance of work; and

•   Obtain, review, and take appropriate action on large projects quarterly progress performance
    reports and final accounting of each large project submitted by OES.

Also, FEMA’s Public Assistance Guide (FEMA 322, pages 80 to 82) requires FEMA to review the
scope of work and cost estimate for large projects to ensure eligibility, accuracy, completeness,
reasonableness, and compliance with federal laws and regulations.

On January 27, 2005, the OIG met with the FEMA official responsible for monitoring the public
assistance grant to the City. At this meeting, the FEMA official stated that FEMA relies primarily on
OES to monitor the City’s disaster project activities, and to review requests for disaster funds and
ensure that requests are eligible and in compliance with federal requirements. This official explained
that generally, FEMA accepts OES funding recommendations when a project scope has not been
altered and project costs are within budgeted amounts. Based on audit results, project 58500
warranted closer scrutiny by FEMA because the City materially changed the project scope and costs
from FEMA’s initial determination.




                                                   5
                                    RECOMMENDATIONS

The OIG recommends that:

   1. The Acting Regional Director, FEMA Region IX, in coordination with OES, disallow
      questioned costs of $349,713.

   2. The Acting Regional Director, FEMA Region IX take necessary steps to improve internal
      procedures for reviewing, approving, and documenting changes in project scope and funding;
      and review and determine the effect of the City’s non-compliance with the NEPA
      requirements.

             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The OIG discussed the results of this audit with City officials on March 11, 2005. Those officials
agreed with finding C, and did not agree with finding A, B, and D. The OIG also notified FEMA and
OES officials of the audit results on May 9, 2005.

Please advise this office by September 16, 2005 of any actions taken in response to the
recommendations in this report. Should you have any questions concerning this report, please
contact me at (510) 627-7011. Key contributors to this assignment were Mr. Humberto Melara,
Mr. Arona Maiava and Mr. Gregory Suko.




                                                6
                                                                                      Exhibit


                                 Schedule of Audited Projects
                                  City of San Jose, California
                      Public Assistance Identification Number 085-68000
                            FEMA Disaster Number 1203-DR-CA


                                         Amount       Questioned           Finding
               Project Number            Awarded        Costs             Reference
               Large Projects
                    21580            $ 729,447         $     -0-
                    21582               558,269           7,859              C
                    20428               191,735              -0-
                    58500             1,567,718         341,854            A, B
                  Sub-Total          $3,047,169        $349,713

               Small Projects
                  20429              $     45,311      $      -0-
                  20434                    46,620             -0-
                  40241                    13,336             -0-
                  02184                    23,784             -0-
                  02185                    24,000              0-
                Sub-Total                $153,051      $      -0-

                    Total            $3,200,220        $349,713


Finding Reference Legend
A - Unsupported Costs
B - Ineligible Project Costs
C - Unallowable Force Account Labor Costs




                                              7
